IN THE SUPREME COURT OF THE UNITED STATES
______________________
Nos. 19-267 & 19-348
OUR LADY OF GUADALUPE SCHOOL, PETITIONER,
v.
AGNES MORRISSEY-BERRU.
_____________________
ST. JAMES SCHOOL, PETITIONER,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF KRISTEN BIEL.
_____________________
ON WRITS OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________________
UNOPPOSED MOTION OF THE COMMONWEALTH OF VIRGINIA
FOR LEAVE TO PARTICIPATE IN ORAL ARGUMENT
AS AMICUS CURIAE AND FOR DIVIDED ARGUMENT
______________________
Pursuant to Rules 28.4 and 28.7 of the Rules of this Court, the
Commonwealth of Virginia, on behalf of 16 States and the District of
Columbia (collectively, amici States), respectfully requests that the
Court grant divided argument and allow amici States ten minutes of
argument time in support of respondents. Respondents have agreed to

1

cede ten minutes of argument time to Virginia and therefore consent to
this motion.
1.

These cases will directly affect the constitutionality of

numerous state laws. Although respondents’ claims arise under federal
law—specifically, the Age Discrimination in Employment Act, 29 U.S.C.
§ 621, et seq., and the Americans with Disabilities Act, 42 U.S.C.
§ 12101, et seq. —the “ministerial exception” under which petitioners
seek protection derives from the Religion Clauses of the Federal
Constitution and is thus binding on the States. See Hosanna-Tabor

Evangelical Lutheran Church and School v. EEOC, 565 U.S. 171, 176
(2012) (framing issue as “whether the Establishment and Free Exercise
Clauses of the First Amendment bar” certain suits alleging
“employment discrimination”); id. at 194 n.3 (accepting plaintiffs’
concession “that if the ministerial exception bars her retaliation claim
under [federal law], it also bars her retaliation claim under Michigan
law”). Because the principles articulated in these cases will apply
equally to state worker-protection laws and will not be subject to
modification or reconsideration by States or their legislatures, amici
States have a particular interest in ensuring that their sovereign

2

powers are not unduly restrained. See Knick v. Township of Scott, 139
S. Ct. 2162, 2177 (2019) (noting that when this Court announces a
constitutional rule, “only this Court or a constitutional amendment can
alter” it).
2.

These cases also implicate amici States’ distinct interest in

protecting their residents “from the harmful effects of discrimination.”

Alfred L. Snapp & Son, Inc. v. Puerto Rico, 458 U.S. 592, 609 (1982).
Respondents ably represent the private interest in recovery for
individual plaintiffs who have been subjected to unlawful
discrimination. But, as this Court has emphasized, compensation is
only “one object” of anti-discrimination statutes. McKennon v. Nashville

Banner Pub. Co., 513 U.S. 352, 358 (1995). Such statutes “also serve an
obvious public function in deterring future violations,” EEOC v. Waffle

House, Inc., 534 U.S. 279, 295 (2002), and thus “eliminat[ing]
discrimination in the workplace,” McKennon, 513 U.S. at 358 (internal
quotation marks and citation omitted). As the Court has recognized,
States play a vital and unique role in that process, both by enacting and
enforcing their own laws and working in partnership with the federal
government to enforce federal law. See, e.g., EEOC v. Commercial

3

Office Prods. Co., 486 U.S. 107, 110–111 (1988). The States’ sovereign
interest in appropriately rigorous enforcement of anti-discrimination
laws thus stands separate and apart from the private recoveries
respondents seek.
3.

Permitting argument by amici States in support of

respondents would be particularly warranted if the Court grants leave
for the federal government to argue as amicus curiae in support of
petitioners. Although the federal government filed a brief and presented
argument supporting one of the respondents in the court below, it now
joins petitioners in urging reversal of that court’s decision and arguing
for a significant expansion of the ministerial exception. Moreover, in its
motion for divided argument, the federal government focuses on its
interest in preserving religious freedom while downplaying its interest
in enforcing federal civil rights laws and protecting employees (like
respondents) from the harmful effects of discrimination. See U.S. Mot.
2. Permitting argument by amici States in support of respondents will
thus aid the Court’s resolution of these cases by providing the
perspective of different types of sovereigns with different views about

4

how the Court should balance the critical issues of religious liberty and
workplace equality.
Respectfully submitted.
Toby J. Heytens

Solicitor General
Counsel of Record

Office of the Virginia Attorney General
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7240
solicitorgeneral@oag.state.va.us
March 11, 2020

5

